      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                        Washington, D.C. 20201




October 18, 2011

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Review of Drug Costs to Medicaid Pharmacies and Their Relation to Benchmark
               Prices (A-06-11-00002)


The attached final report provides the results of our review of drug costs to Medicaid pharmacies
and their relation to benchmark prices.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov. We look
forward to receiving your final management decision within 6 months. Please refer to report
number A-06-11-00002 in all correspondence.


Attachment
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




  REVIEW OF DRUG COSTS TO
  MEDICAID PHARMACIES AND
     THEIR RELATION TO
    BENCHMARK PRICES




                       Daniel R. Levinson
                        Inspector General

                         October 2011
                         A-06-11-00002
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

States historically have based reimbursement for the costs to acquire Medicaid prescription drug
ingredients on the average wholesale price (AWP). Several entities publish AWPs, and
according to one publisher, AWPs are intended to represent the wholesalers’ catalog, or list,
prices to their customers. Numerous Office of Inspector General reports have found that AWPs
do not represent pharmacies’ actual cost to acquire drug ingredients, and, as a result, States often
have overreimbursed pharmacies for those costs. A primary publisher of AWPs announced that
it would discontinue publishing them by September 26, 2011. As a result, States will have to
obtain AWPs from another source or consider using another readily available price (benchmark
price). We performed this review to provide information that States can use as they consider
changes to their reimbursement methodologies.

Federal regulations (42 CFR part 447) set forth the requirements for States’ reimbursement of
Medicaid prescription drugs. For multiple-source drugs that meet certain criteria, reimbursement
is limited, in the aggregate, to Federal upper limit (FUL) amounts established by the Centers for
Medicare & Medicaid Services (CMS). Multiple-source drugs include brand-name and generic
drugs. For single-source drugs (brand-name drugs without generic equivalents) and
multiple-source drugs without FULs, reimbursement is limited, in the aggregate, to the lower of
(1) the estimated acquisition cost plus a reasonable dispensing fee or (2) the provider’s usual and
customary charge to the public for the drugs. In broad terms, “estimated acquisition cost” refers
to the State’s best estimate of the price providers generally and currently pay for a drug.

As of the first quarter of calendar year 2011, 45 States used reimbursement methodologies based
either solely on the AWP or on the AWP in combination with another benchmark price (e.g., the
wholesale acquisition cost (WAC)).

As part of the Medicaid drug rebate program, manufacturers report the average manufacturer
price (AMP) of drug ingredients based on actual sales transactions. The AMP is a recognized
benchmark in the Medicaid program used in determining Medicaid prescription drug rebates.

OBJECTIVE

Our objective was to evaluate the relationships between three recognized benchmarks—the
AWP, WAC, and AMP—and pharmacy invoice prices for Medicaid-reimbursed drugs.

SUMMARY OF FINDINGS

The AWP, WAC, and AMP had consistent relationships with invoice prices for single-source
drugs, but none of the benchmarks had consistent relationships with invoice prices for
multiple-source drugs without FULs. Although based on actual sales transactions, the AMP was
the least consistent benchmark. Further analysis of multiple-source drugs without FULs
indicated that the relationship between the benchmarks and invoice prices varied depending on
whether the drugs were brand-name or generic. When the relationship between a benchmark and

                                                  i
an invoice price is consistent, the benchmark is a more reliable basis for determining
reimbursement. States may be able to better approximate the invoice prices of drugs by
developing different reimbursement methodologies for single-source drugs, brand-name
multiple-source drugs, and generic multiple-source drugs.

RECOMMENDATION

We recommend that CMS share the results of this review with States for their use when they
consider changes to their pharmacy reimbursement methodologies, including those for
single-source drugs, brand-name multiple-source drugs, and generic multiple-source drugs.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

We discussed the results of our audit with CMS officials, and they said that they appreciated the
information we have provided.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION ........................................................................................................................ 1

          BACKGROUND ............................................................................................................... 1
              Medicaid Program .................................................................................................. 1
              Federal Regulations ............................................................................................... 1
              States’ Reimbursement Methodologies ................................................................. 1
              Average Wholesale Price Availability ................................................................... 2
              Alternative Benchmark Prices ............................................................................... 2
              Previous Office of Inspector General Work .......................................................... 3

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................. 3
               Objective ................................................................................................................ 3
               Scope ...................................................................................................................... 4
               Methodology .......................................................................................................... 4

FINDINGS AND RECOMMENDATION ................................................................................. 5

          AVERAGE WHOLESALE PRICE ................................................................................... 6
              Single-Source Drugs .............................................................................................. 6
              Multiple-Source Drugs Without Federal Upper Limits ......................................... 6

          WHOLESALE ACQUISITION COST ............................................................................. 7
              Single-Source Drugs .............................................................................................. 7
              Multiple-Source Drugs Without Federal Upper Limits ......................................... 8

          AVERAGE MANUFACTURER PRICE .......................................................................... 9
              Single-Source Drugs .............................................................................................. 9
              Multiple-Source Drugs Without Federal Upper Limits ......................................... 9

          RECOMMENDATION .................................................................................................. 10

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS .................... 10

APPENDIXES

         A: SAMPLE DESIGN AND METHODOLOGY

         B: SAMPLE RESULTS AND ESTIMATES

         C: FREQUENCY DISTRIBUTION OF SINGLE-SOURCE DRUGS




                                                                    iii
D: FREQUENCY DISTRIBUTION OF MULTIPLE-SOURCE DRUGS
    WITHOUT FEDERAL UPPER LIMITS

E: FREQUENCY DISTRIBUTION OF MULTIPLE-SOURCE DRUGS
    WITH FEDERAL UPPER LIMITS




                            iv
                                       INTRODUCTION

BACKGROUND

States historically have based reimbursement for the ingredient cost of Medicaid prescription
drugs on the average wholesale price (AWP). Several entities publish AWPs, and according to
one publisher, AWPs are intended to represent the wholesalers’ catalog, or list, prices to their
customers. Numerous Office of Inspector General (OIG) reports have found that AWPs do not
represent pharmacies’ actual cost to acquire drug ingredients, and, as a result, States often have
overreimbursed pharmacies for those costs. A primary publisher of AWPs announced that it
would discontinue publishing them by September 26, 2011. As a result, States will have to
obtain AWPs from another source or consider using another readily available price (benchmark
price). We performed this review to provide information that States can use as they consider
changes to their reimbursement methodologies.

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. All 50 States and the District of Columbia
(hereinafter referred to as “States”) provide coverage for prescription drugs under the Medicaid
program.

Federal Regulations

Federal regulations (42 CFR part 447) set forth the requirements for States’ reimbursement of
Medicaid prescription drugs. For multiple-source drugs that meet certain criteria, reimbursement
is limited, in the aggregate, to Federal upper limit (FUL) amounts established by CMS.
Multiple-source drugs include brand-name and generic drugs. For single-source drugs
(brand-name drugs without generic equivalents) and multiple-source drugs without FULs,
reimbursement is limited, in the aggregate, to the lower of (1) the estimated acquisition cost plus
a reasonable dispensing fee or (2) the provider’s usual and customary charge to the public for the
drugs (42 CFR § 447.512). In broad terms, “estimated acquisition cost” refers to the State’s best
estimate of the price providers generally and currently pay for a drug (42 CFR § 447.502). CMS
allows States flexibility in defining estimated acquisition cost.

States’ Reimbursement Methodologies

States generally have based estimated acquisition costs on benchmark prices, such as the AWP.
As of the first quarter of calendar year 2011, 45 States used reimbursement methodologies based
either solely on the AWP or on the AWP in combination with another benchmark price, such as
the wholesale acquisition cost (WAC). Of the six States that did not use AWPs as a basis for

                                                 1
reimbursement, four used WACs and two used actual acquisition costs. State reimbursement is
typically the benchmark plus or minus a percentage of the benchmark. Eleven States used a
different percentage of the benchmark depending on whether the drug was a brand-name or
generic. 1

Two States recently revised their reimbursement methodologies to use actual acquisition costs,
rather than AWPs or WACs. Both States had a contractor periodically survey pharmacies to
determine the actual acquisition cost of drugs. Reimbursement was based on the surveyed
prices.

Average Wholesale Price Availability

First DataBank is a company that publishes drug product and pricing information, including a
monthly compendium of AWPs. Most States have used First DataBank’s pricing compendium
as their source for AWPs. Because of a lawsuit regarding its reporting of AWPs, First DataBank
announced, in a March 31, 2009, communication to its customers, that it would discontinue
publishing AWPs by September 26, 2011. 2 However, sources such as Gold Standard,
Medi-Span, and Red Book will continue to publish AWPs.3

Alternative Benchmark Prices

Some States currently use WACs in their reimbursement methodologies. According to First
DataBank, WACs represent manufacturers’ published catalog price for a drug product to
wholesalers. The prices are not actual transaction prices and do not include prompt-pay
discounts or other discounts, rebates, or reductions in price. First DataBank will continue to
publish WACs, which are also published by Gold Standard, Medi-Span, and Red Book.

As part of the Medicaid drug rebate program, manufacturers report the average manufacturer
price (AMP) of the drug ingredients based on actual sales transactions. The AMP is a
recognized benchmark in the Medicaid program used in determining Medicaid prescription drug
rebates. The AMP is generally defined in section 1927(k)(1) of the Act as the average price
wholesalers (and certain pharmacies that purchase drugs directly from the manufacturer) pay to
manufacturers for drugs distributed to retail community pharmacies, with certain exclusions.




1
 “Medicaid Prescription Reimbursement Information by State—Quarter Ending March 2011.” Accessed at
http://www.cms.gov/Reimbursement/20_StateMedicaidRxReimb.asp#TopOfPage on May 11, 2011.
2
 First DataBank. Available online at http://www.firstdatabank.com/Support/awp-communications.aspx. Accessed
May 12, 2011.
3
 Gold Standard. Available online at http://www.goldstandard.com/productSubmissionForms/PricingPolicies.pdf.
Accessed June 28, 2011. Medi-Span. Available online at http://www.medispan.com/Pricing-Policy-Update.aspx.
Accessed June 30, 2011. Red Book. Available online at http://www.redbook.com/redbook/awp/. Accessed June 28,
2011.


                                                     2
Previous Office of Inspector General Work

OIG has issued several reports on the relationship between pharmacy acquisition costs and the
AWP. One report, 4 which was based on calendar year 1999 data and issued in 2002, found that
pharmacies purchased single-source drugs at an estimated 82.81 percent of the AWP,
multiple-source drugs without FULs at an estimated 55.77 percent of the AWP, and
multiple-source drugs with FULs at an estimated 27.87 percent of the AWP. States appeared to
be paying substantially higher reimbursement rates for drugs than necessary, and we
recommended that CMS encourage States to consider adopting a four-tiered payment system to
bring pharmacy reimbursement closer to the actual acquisition cost of drugs. A four-tiered
system would have separate reimbursement percentages for single-source drugs, multiple-source
brand-name drugs without FULs, multiple-source generic drugs without FULs, and all drugs
with FULs.

OIG recently issued a report 5 that focused on (1) how States will set reimbursement for Medicaid
prescription drugs after First DataBank stops publishing the AWP in September 2011 and (2) the
role that States would prefer CMS to play in developing Medicaid reimbursement methodologies
for prescription drugs. The report found that of the 45 States with an AWP-based reimbursement
methodology:

      •   20 States had not developed definitive reimbursement plans;

      •   15 States had relatively well-developed plans to discontinue using the AWP; and

      •   10 States will continue using the AWP to set reimbursement, at least in the short term. 6

The report also found that 44 of 51 States would prefer that CMS develop a single national
benchmark to use in setting Medicaid reimbursement rates.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to evaluate the relationships between three recognized benchmarks—the
AWP, WAC, and AMP—and pharmacy invoice prices for Medicaid-reimbursed drugs.




4
 Medicaid Pharmacy—Additional Analyses of the Actual Acquisition Cost of Prescription Drug Products
(A-06-02-00041), September 2002.
5
    Replacing Average Wholesale Price: Medicaid Drug Payment Policy (OEI-03-11-00060), July 2011.
6
 Six of the States that will continue using the AWP were already obtaining it from a source other than First
DataBank; the four remaining States plan to obtain AWP data from another source.


                                                         3
Scope

We reviewed November 2010 invoice prices from a stratified random sample of pharmacies. 7
We used the National Council for Prescription Drug Programs (NCPDP) dataQ Pharmacy
Database File to identify our population of 58,545 pharmacies. We included only pharmacies
that the NCPDP dataQ Pharmacy Database File classified with a dispenser class code of
“independent,” “chain,” or “franchise pharmacy” and a dispenser class type of “community/retail
pharmacy.”

We limited our review to the pharmacies’ cost of acquiring the drugs and did not address any
costs associated with dispensing the drugs. We did not independently verify any information
obtained from third-party sources. Additionally, we did not attempt to identify any discounts,
rebates, or other price incentives not reflected in the invoice prices. Our objective did not require
that we identify or review any internal control systems.

Methodology

To accomplish our objective, we:

       •   reviewed applicable Federal regulations;

       •   discussed our review with CMS officials;

       •   reviewed States’ reimbursement methodologies;

       •   identified our population of pharmacies from the NCPDP dataQ Pharmacy Database File
           and classified each pharmacy as “independent” or “chain” 8 based on information in the
           NCPDP file;

       •   classified each pharmacy as “rural” or “urban” based on the pharmacy’s location in
           metropolitan statistical areas;

       •   selected, as detailed in Appendix A, a random sample of 30 pharmacies each from 4
           strata: rural-chain, urban-chain, rural-independent, and urban-independent; 9

       •   requested from each of the 120 selected pharmacies the November 2010 invoice with the
           most line items from 4 different sources: wholesalers, chain warehouse distribution
           centers, generic distributors, and manufacturers;


7
    An invoice price is the price for each drug listed on the invoices provided by the sampled pharmacies.
8
 We classified franchise pharmacies as “independents” unless we identified four or more franchises with common
ownership; we classified these as “chain pharmacies.” NCPDP defines a chain as four or more pharmacies with
common ownership.
9
    We provide more detailed analysis of these strata in Appendix B.

                                                            4
       •   reviewed the invoices and eliminated over-the-counter products based on First
           DataBank’s National Drug Data File (NDDF) Plus classifications;

       •   categorized the remaining drugs as single-source or multiple-source and further
           categorized the multiple-source drugs as brand-name or generic based on NDDF
           classifications;

       •   identified the multiple-source drugs with FULs using the pricing file within the NDDF;

       •   identified the AWP in effect as of the invoice date for each drug from the NDDF and
           excluded the drug from our review if the AWP was not available;

       •   identified the WAC in effect as of the invoice data for each drug from the NDDF;

       •   obtained the AMP for each drug for the quarter ended December 31, 2010 from CMS; 10

       •   compared the invoice prices to AWPs, WACs, and AMPs by calculating the invoice price
           as a percentage of each benchmark price; and

       •   estimated, as shown in Appendix B, the average invoice price as a percentage of each
           benchmark price.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                FINDINGS AND RECOMMENDATION

The AWP, WAC, and AMP had consistent relationships with invoice prices for single-source
drugs, but none of the benchmarks had consistent relationships with invoice prices for
multiple-source drugs without FULs. Although based on actual sales transactions, the AMP was
the least consistent benchmark. Our further analysis of multiple-source drugs without FULs
indicated that the relationship between the benchmarks and invoice prices varied depending on
whether the drugs were brand-name or generic. When the relationship between a benchmark and
an invoice price is consistent, the benchmark is a more reliable basis for determining
reimbursement. States may be able to better approximate the invoice prices of drugs by
developing different reimbursement methodologies for single-source drugs, brand-name
multiple-source drugs, and generic multiple-source drugs.




10
     The WAC and AMP were not available for every drug in our review.

                                                        5
AVERAGE WHOLESALE PRICE

Single-Source Drugs

The relationship between invoice prices and AWPs for single-source drugs was consistent and
was also comparable with our previous review of 1999 data. Invoice prices ranged from
71.54 percent to 91.84 percent of AWPs. (See Chart 1 for a distribution of the percentages.) We
estimated that invoice prices for single-source drugs averaged 82.80 percent of the related
AWPs, with a standard error of 0.18 percent. 11 We based this estimate on a comparison of
AWPs and 4,175 invoice prices.

In our previous review of 1999 data, we estimated that invoice prices for single-source drugs
averaged 82.81 percent of the related AWPs, with a standard error of 0.25 percent. The sample
results are shown in Appendix B and the frequency distributions in Appendix C.

                            Chart 1: C omparison of Single-Source Drug Prices
                                      and Average Wholesale Prices
               3,000
                                                                          2401
               2,500

                2,000
      Number
     of Invoice 1,500
       Prices
                1,000                              622     576
                 500                                               174
                          46       6       39                                       191      110      1        9
                    0
                         78%     79%      80%     81%     82%      83%     84%      85%     86%     87%     Greater
                         and                                                                                 than
                         Less                Percentage of Average Wholesale Price                           87%



Multiple-Source Drugs Without Federal Upper Limits

The relationship between invoice prices and AWPs for multiple-source drugs without FULs
varied and had changed since 1999. For multiple-source drugs without FULs, invoice prices
ranged from 0.31 percent to 109.66 percent of the AWPs. (See Chart 2 for a distribution of the
percentages.) We estimated that invoice prices for multiple source drugs without FULs averaged
42.93 percent of the related AWPs, with a standard error of 1.22 percent. We based this estimate
on a comparison of AWPs and 4,107 invoice prices. In our previous review of 1999 data, we
estimated that the invoice prices for these drugs averaged 55.77 percent of the related AWPs.

The estimate of invoice prices as a percentage of the AWP was substantially different for generic
drugs than for brand-name drugs. We estimated that invoice prices for generic multiple-source
drugs without FULs averaged 34.39 percent of the related AWPs, with a standard error of

11
  The standard error indicates the precision of the estimate. The closer the standard error is to zero, the more
precise the estimate is.

                                                           6
1.31 percent, based on a comparison of AWPs and 2,976 invoice prices. For brand-name drugs,
we estimated that invoice prices averaged 61.60 percent of the related AWPs, with a standard
error of 1.22 percent, based on a comparison of AWPs and 1,131 invoice prices. The sample
results are shown in Appendix B and the frequency distributions in Appendix D. 12

               Chart 2: C omparison of Multiple-Source Drug Prices Without Federal
                            Upper Limits and Average Wholesale Prices
               700
                                593                                                      565
               600
               500                      464
                                                426
                      364                                351
      Number 400
     of Invoice 300                                                       268
       Prices                                                      198           183
                200               135
                                          71                  80            75          99
               100                                61                 50            57
                            3                                                                  28 34    2 0
                 0
                      5% and    15%     25%     35%      45%       55%    65%    75%    85%    95%     Greater
                       Less                    Percentage of Average Wholesale Price                    than
                                                                                                        95%
                                                       Generic     Brand-Name




WHOLESALE ACQUISITION COST

Single-Source Drugs

The relationship between invoice prices and WACs was similar to the relationship between
invoice prices and AWPs. For single-source drugs, the relationship was consistent; invoice
prices ranged from 86.96 percent of the WACs to 110.20 percent of the WACs. (See Chart 3 for
a distribution of the percentages.) We estimated that invoice prices for single-source drugs
averaged 99.46 percent of the related WACs, with a standard error of 0.23 percent. We based
this estimate on a comparison of 4,174 invoice prices and the related WACs. The sample results
are shown in Appendix B and the frequency distributions in Appendix C.




12
  Although reimbursement for multiple-source drugs with FULs is limited to the FUL amounts, we compared
invoice prices for multiple-source drugs with FULs to all three benchmarks. (See Appendixes B and E.)


                                                          7
                             Chart 3: C omparison of Single-Source Drug Prices
                                      and Wholesale Acquisition Costs
              2,000                                                      1871


              1,500
    Number
   of Invoice 1,000
     Prices                                           641                         594
                  500                        400
                                                               291
                                                                                              187
                            33        36                                                                  72          40         9
                    0
                            95%       96%    97%      98%      99%       100%    101%     102%        103%           104% Greater
                            and                                                                                            than
                            Less                    Percentage of Wholesale Acquisition Cost                              104%


Multiple-Source Drugs Without Federal Upper Limits

For multiple-source drugs without FULs, the relationship between generic drugs and brand-name
drugs varied considerably; invoice prices ranged from 1.00 percent of the related WACs to
984.97 percent of the related WACs. (See Chart 4 for a distribution of the percentages.) We
estimated that invoice prices for multiple-source drugs without FULs averaged 66.68 percent of
the related WACs, with a standard error of 3.24 percent. We based this estimate on a
comparison of 3,539 invoice prices and the related WACs. We estimated that the invoice prices
for generic multiple-source drugs without FULs averaged 59.44 percent of the related WACs,
with a standard error of 3.84 percent, based on a comparison of WACs and 2,448 invoice prices.
For brand-name drugs, we estimated that the invoice prices averaged 76.94 percent of the related
WACs, with a standard error of 1.44 percent, based on a comparison of WACs and 1,091 invoice
prices. The sample results are shown in Appendix B and the frequency distributions in
Appendix D.

              Chart 4: C omparison of Multiple-Source Drug Prices Without Federal
                          Upper Limits and Wholesale Acquisition Costs
           700
                                                                                                                575
           600
            500
  Number
 of Invoice 400              318      317
   Prices 300                                276     260      237       213     221     222
           200                                                                                      140        132
                                        96     79                  74
           100                                          40                        40      53          66                         44
                   31            31                                       30                                            37
                        1                                                                                                    3        3
             0
                  5% and 15%          25%    35%      45%     55%       65%     75%     85%         95%        105% 115% Greater
                   Less                        Percentage of Wholesale Acquisition Cost                                   than
                                                                                                                         115%
                                                           Generic      Brand-Name



                                                               8
AVERAGE MANUFACTURER PRICE

Single-Source Drugs

Although AMPs are based on actual sales transactions, their relationship to invoice prices was
not as consistent as the relationship between invoice prices and AWPs and WACs. For
single-source drugs, the relationship between invoice prices and AMPs varied from
80.54 percent of the related AMPs to 413.86 percent of the related AMPs. (See Chart 5 for a
distribution of the percentages.) We estimated that invoice prices for single-source drugs
averaged 101.23 percent of the related AMPs, with a standard error of 0.42 percent. We based
this estimate on a comparison of 3,697 invoice prices and the related AMPs. The sample results
are shown in Appendix B and the frequency distributions in Appendix C.


                             Chart 5: C omparison of Single-Source Drug Prices
                                     and Average Manufacturer Prices
                1,600
                                                                      1224
                1,200
    Number
   of Invoice    800
     Prices                                                                   523
                                                379     390    348
                 400                                                                                  267
                                       186                                              140    130
                        81       29
                   0
                        95%     96%    97%      98%    99%    100%    101%   102%       103%   104% Greater
                        and                                                                          than
                        Less                 Percentage of Average Manufacturer Price               104%



Multiple-Source Drugs Without Federal Upper Limits

The relationship between invoice prices and AMPs for multiple-source drugs without FULs
varied substantially. Invoice prices ranged from 4.99 percent of the related AMPs to
8,350.03 percent of the related AMPs. (See Chart 6 for a distribution of the percentages.) We
estimated that invoice prices for multiple-source drugs without FULs averaged 182.20 percent of
the related AMPs, with a standard error of 11.80 percent. We based this estimate on a
comparison of 3,861 invoice prices and the related AMPs. We estimated that invoice prices for
generic multiple-source drugs without FULs averaged 204.14 percent of the related AMPs, with
a standard error of 19.91 percent, based on a comparison of AMPs and 2,889 invoice prices. For
brand-name drugs, we estimated that invoice prices averaged 139.29 percent of the related
AMPs, with a standard error of 10.91 percent, based on a comparison of AMPs and 972 invoice
prices. The sample results are shown in Appendix B and the frequency distributions in
Appendix D.




                                                       9
             Chart 6: C omparison of Multiple-Source Drug Prices Without Federal
                        Upper Limits and Average Manufacturer Prices
            600
                   519
                                   473
            500            430       427
                                           392
   Number 400
  of Invoice 300                                                                                       289
                                                    262
    Prices                   214
             200                                            172
                                                                   121
                                             90                           91        78
            100       62                                      51                              62
                                                       34            31        11        12              34
                                                                                                   6
              0
                   75% and 100%    125%    150%     175%    200%   225%   250%      275%      300% Greater
                     Less             Percentage of Average Manufacturer Price                      than
                                                                                                   300%
                                                  Generic   Brand-Name


RECOMMENDATION

We recommend that CMS share the results of this review with States for their use when they
consider changes to their pharmacy reimbursement methodologies, including those for
single-source drugs, brand-name multiple-source drugs, and generic multiple-source drugs.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

We discussed the results of our audit with CMS officials, and they said that they appreciated the
information we have provided.




                                                    10
APPENDIXES
                                                                                                   Page 1 of 2


                  APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The sampling population consisted of all traditional retail pharmacies in the 49 States and the
District of Columbia (Arizona was not included) that were in business as of November 10, 2010,
and that were listed in the National Council for Prescription Drug Programs (NCPDP) dataQ
Pharmacy Database File. 1

SAMPLING FRAME

To create our sampling frame, we used the NCPDP dataQ Pharmacy Database File. We
eliminated pharmacies located in Arizona, Puerto Rico, Guam, the Mariana Islands, and the
U.S. Virgin Islands. We excluded pharmacies that we identified as Government or managed care
pharmacies based on the dispenser class code and dispenser type code. We also excluded all
pharmacies identified as nontraditional pharmacies and pharmacies that we identified as closed
before November 10, 2010. Our sampling frame totaled 58,545 pharmacies. 2

SAMPLE UNIT

We defined our sample unit as a pharmacy based on its unique NCPDP identification (ID). We
requested the invoice with the most line items that each pharmacy had from each supply source
for November 2010. Supply sources included wholesalers, chain warehouse distribution centers,
generic distributors, and manufacturers.

SAMPLE DESIGN

We selected a stratified sample with four strata.

    Strata                  Description                           Frame Size
      1                  Urban-independent                          17,362
      2                  Urban-chain                                36,452
      3                  Rural-independent                           2,798
      4                  Rural-chain                                 1,933

SAMPLE SIZE

We selected 30 pharmacies from each stratum for a total of 120 pharmacies.



1
 Arizona is unique because it has a managed care system for providing Medicaid covered drugs. After discussions
with CMS, we chose to omit Arizona from this review.
2
  We removed two pharmacies from our sampling frame because one pharmacy did not participate in Medicaid and
one pharmacy was misclassified in the NCPDP dataQ Pharmacy Database File. This reduced the sampling frame
from 58,547 to 58,545.
                                                                                   Page 2 of 2


SOURCE OF RANDOM NUMBERS

We generated the random numbers using Office of Inspector General, Office of Audit Services,
statistical software.

METHOD OF SELECTING SAMPLE ITEMS

We sorted each stratum by the NCPDP ID and consecutively numbered the pharmacies in each
stratum of the sampling frame from 1 to the total number of pharmacies in the stratum. After
generating 120 random numbers, 30 for each stratum, we selected the corresponding frame
items.
                                                                                     Page 1 of 6


                  APPENDIX B: SAMPLE RESULTS AND ESTIMATES

SAMPLE RESULTS

Average Wholesale Price

Single-Source Drugs
     Pharmacy Type         Universe of       Sample       Drug Prices        Invoice Price as a
                           Pharmacies      Pharmacies      Reviewed      Percentage of Benchmark
 Urban-independent           17,362            27             661                 81.97%
 Urban-chain                 36,452            30           1,655                 83.19%
 Rural-independent            2,798            29             769                 82.17%
 Rural-chain                  1,933            29           1,090                 83.71%
  Overall                    58,545           115           4,175                 82.80%

Multiple-Source Drugs Without Federal Upper Limits
     Pharmacy Type         Universe of      Sample        Drug Prices        Invoice Price as a
                           Pharmacies     Pharmacies       Reviewed      Percentage of Benchmark
 Urban-independent           17,362            27             499                 55.44%
 Urban-chain                 36,452            30           1,772                 36.53%
 Rural-independent            2,798            29             572                 51.91%
 Rural-chain                  1,933            30           1,264                 38.20%
  Overall                    58,545           116           4,107                 42.93%

Multiple-Source Brand-Name Drugs Without Federal Upper Limits
     Pharmacy Type        Universe of      Sample        Drug Prices         Invoice Price as a
                          Pharmacies     Pharmacies       Reviewed       Percentage of Benchmark
 Urban-independent          17,362            27              183                 72.31%
 Urban-chain                36,452            30              460                 56.19%
 Rural-independent           2,798            29              207                 68.47%
 Rural-chain                 1,933            30              281                 57.72%
  Overall                   58,545          116             1,131                 61.60%

Multiple-Source Generic Drugs Without Federal Upper Limits
     Pharmacy Type         Universe of      Sample         Drug Prices       Invoice Price as a
                           Pharmacies     Pharmacies        Reviewed     Percentage of Benchmark
 Urban-independent           17,362            27              316                44.80%
 Urban-chain                 36,452            30            1,312                28.94%
 Rural-independent            2,798            29              365                42.61%
 Rural-chain                  1,933            30              983                31.83%
  Overall                    58,545           116            2,976                34.39%

Multiple-Source Drugs With Federal Upper Limits
     Pharmacy Type         Universe of      Sample        Drug Prices        Invoice Price as a
                           Pharmacies     Pharmacies       Reviewed      Percentage of Benchmark
 Urban-independent           17,362             28            693                 18.70%
 Urban-chain                 36,452             30          3,053                 10.42%
 Rural-independent            2,798             29            871                 17.73%
 Rural-chain                  1,933             30          2,535                 12.84%
  Overall                    58,545           117           7,152                 13.31%
                                                                                     Page 2 of 6

Wholesale Acquisition Cost

Single-Source Drugs
     Pharmacy Type           Universe of     Sample       Drug Prices        Invoice Price as a
                             Pharmacies    Pharmacies      Reviewed      Percentage of Benchmark
 Urban-independent             17,362          27             661                 98.39%
 Urban-chain                   36,452          30           1,654                 99.98%
 Rural-independent              2,798          29             769                 98.62%
 Rural-chain                    1,933          29           1,090               100.47%
  Overall                      58,545         115           4,174                 99.46%

Multiple-Source Drugs Without Federal Upper Limits
     Pharmacy Type         Universe of      Sample        Drug Prices        Invoice Price as a
                           Pharmacies     Pharmacies       Reviewed      Percentage of Benchmark
 Urban-independent           17,362            27             415                 79.38%
 Urban-chain                 36,452            30           1,558                 59.97%
 Rural-independent            2,798            29             483                 75.81%
 Rural-chain                  1,933            30           1,083                 66.10%
  Overall                    58,545           116           3,539                 66.68%

Multiple-Source Brand-Name Drugs Without Federal Upper Limits
     Pharmacy Type        Universe of      Sample        Drug Prices         Invoice Price as a
                          Pharmacies     Pharmacies       Reviewed       Percentage of Benchmark
 Urban-independent          17,362            27              172                 89.96%
 Urban-chain                36,452            30              446                 70.18%
 Rural-independent           2,798            29              204                 87.22%
 Rural-chain                 1,933            30              269                 72.51%
  Overall                   58,545          116             1,091                 76.94%

Multiple-Source Generic Drugs Without Federal Upper Limits
     Pharmacy Type         Universe of      Sample         Drug Prices       Invoice Price as a
                           Pharmacies     Pharmacies        Reviewed     Percentage of Benchmark
 Urban-independent           17,362            25              243                71.23%
 Urban-chain                 36,452            30            1,112                53.11%
 Rural-independent            2,798            29              279                67.10%
 Rural-chain                  1,933            30              814                61.87%
  Overall                    58,545           114            2,448                59.44%

Multiple-Source Drugs With Federal Upper Limits
     Pharmacy Type         Universe of      Sample        Drug Prices        Invoice Price as a
                           Pharmacies     Pharmacies       Reviewed      Percentage of Benchmark
 Urban-independent           17,362             28            555                 51.87%
 Urban-chain                 36,452             30          2,576                 34.12%
 Rural-independent            2,798             29            681                 51.61%
 Rural-chain                  1,933             30          2,080                 40.13%
  Overall                    58,545           117           5,892                 40.42%
                                                                                     Page 3 of 6

Average Manufacturer Price

Single-Source Drugs
     Pharmacy Type         Universe of       Sample       Drug Prices        Invoice Price as a
                           Pharmacies      Pharmacies      Reviewed      Percentage of Benchmark
 Urban-independent           17,362            27             602                 99.77%
 Urban-chain                 36,452            30           1,459                102.01%
 Rural-independent            2,798            29             673                 99.76%
 Rural-chain                  1,933            29             963                101.86%
  Overall                    58,545           115           3,697                101.23%

Multiple-Source Drugs Without Federal Upper Limits
     Pharmacy Type         Universe of      Sample        Drug Prices        Invoice Price as a
                           Pharmacies     Pharmacies       Reviewed      Percentage of Benchmark
 Urban-independent           17,362            27             462                177.95%
 Urban-chain                 36,452            30           1,660                182.50%
 Rural-independent            2,798            29             536                199.45%
 Rural-chain                  1,933            30            1,203               189.92%
  Overall                    58,545           116           3,861                182.20%

Multiple-Source Brand-Name Drugs Without Federal Upper Limits
     Pharmacy Type        Universe of      Sample        Drug Prices         Invoice Price as a
                          Pharmacies     Pharmacies       Reviewed       Percentage of Benchmark
 Urban-independent          17,362            26              166                139.57%
 Urban-chain                36,452            30              380                138.13%
 Rural-independent           2,798            28              186                155.06%
 Rural-chain                 1,933            30              240                135.71%
  Overall                   58,545          114               972                139.29%

Multiple-Source Generic Drugs Without Federal Upper Limits
     Pharmacy Type         Universe of      Sample         Drug Prices       Invoice Price as a
                           Pharmacies     Pharmacies        Reviewed     Percentage of Benchmark
 Urban-independent           17,362            27              296               203.08%
 Urban-chain                 36,452            30            1,280               203.63%
 Rural-independent            2,798            29              350               220.96%
 Rural-chain                  1,933            30              963               198.97%
  Overall                    58,545           116            2,889               204.14%

Multiple-Source Drugs With Federal Upper Limits
     Pharmacy Type         Universe of      Sample        Drug Prices        Invoice Price as a
                           Pharmacies     Pharmacies       Reviewed      Percentage of Benchmark
 Urban-independent           17,362             28            642                240.71%
 Urban-chain                 36,452             30          2,928                170.68%
 Rural-independent            2,798             29            821                249.03%
 Rural-chain                  1,933             30          2,450                218.61%
  Overall                    58,545           117           6,841                196.78%
                                                                                      Page 4 of 6

ESTIMATES

Average Wholesale Price

Single-Source Drugs
     Pharmacy Type           Estimated Mean             90% Confidence         90% Confidence
                                                     Interval—Lower Limit   Interval—Upper Limit
 Urban-independent              81.97%                       81.48%                 82.46%
 Urban-chain                    83.19%                       82.77%                 83.61%
 Rural-independent              82.17%                       81.49%                 82.85%
 Rural-chain                    83.71%                       83.11%                 84.31%
  Overall                       82.80%                       82.50%                 83.10%

Multiple-Source Drugs Without Federal Upper Limits
     Pharmacy Type           Estimated Mean             90% Confidence         90% Confidence
                                                     Interval—Lower Limit   Interval—Upper Limit
 Urban-independent              55.44%                       52.47%                 58.41%
 Urban-chain                    36.53%                       33.51%                 39.55%
 Rural-independent              51.91%                       49.73%                 54.09%
 Rural-chain                    38.20%                       35.89%                 40.51%
  Overall                       42.93%                       40.92%                 44.94%

Multiple-Source Brand-Name Drugs Without Federal Upper Limits
     Pharmacy Type          Estimated Mean           90% Confidence            90% Confidence
                                                  Interval—Lower Limit      Interval—Upper Limit
 Urban-independent              72.31%                    69.07%                    75.55%
 Urban-chain                    56.19%                    53.25%                    59.13%
 Rural-independent              68.47%                    65.68%                    71.26%
 Rural-chain                    57.72%                    54.46%                    60.98%
  Overall                       61.60%                    59.59%                    63.61%

Multiple-Source Generic Drugs Without Federal Upper Limits
     Pharmacy Type           Estimated Mean           90% Confidence           90% Confidence
                                                  Interval—Lower Limit      Interval—Upper Limit
 Urban-independent               44.80%                    40.83%                   48.77%
 Urban-chain                     28.94%                    25.92%                   31.96%
 Rural-independent               42.61%                    39.87%                   45.35%
 Rural-chain                     31.83%                    29.08%                   34.58%
  Overall                        34.39%                    32.24%                   36.54%

Multiple-Source Drugs With Federal Upper Limits
     Pharmacy Type           Estimated Mean             90% Confidence         90% Confidence
                                                     Interval—Lower Limit   Interval—Upper Limit
 Urban-independent              18.70%                       16.08%                 21.32%
 Urban-chain                    10.42%                        8.99%                 11.85%
 Rural-independent              17.73%                       16.11%                 19.35%
 Rural-chain                    12.84%                       11.41%                 14.27%
  Overall                       13.31%                       12.18%                 14.44%
                                                                                      Page 5 of 6

Wholesale Acquisition Cost

Single-Source Drugs
     Pharmacy Type           Estimated Mean             90% Confidence         90% Confidence
                                                     Interval—Lower Limit   Interval—Upper Limit
 Urban-independent               98.39%                      97.81%                 98.97%
 Urban-chain                     99.98%                      99.44%                100.52%
 Rural-independent               98.62%                      97.80%                 99.44%
 Rural-chain                    100.47%                      99.77%                101.17%
  Overall                        99.46%                      99.08%                 99.84%

Multiple-Source Drugs Without Federal Upper Limits
     Pharmacy Type           Estimated Mean             90% Confidence         90% Confidence
                                                     Interval—Lower Limit   Interval—Upper Limit
 Urban-independent              79.38%                       76.19%                 82.57%
 Urban-chain                    59.97%                       51.27%                 68.67%
 Rural-independent              75.81%                       73.28%                 78.34%
 Rural-chain                    66.10%                       58.95%                 73.25%
  Overall                       66.68%                       61.35%                 72.01%

Multiple-Source Brand-Name Drugs Without Federal Upper Limits
     Pharmacy Type          Estimated Mean           90% Confidence            90% Confidence
                                                  Interval—Lower Limit      Interval—Upper Limit
 Urban-independent              89.96%                    86.84%                    93.08%
 Urban-chain                    70.18%                    66.56%                    73.80%
 Rural-independent              87.22%                    84.14%                    90.30%
 Rural-chain                    72.51%                    68.62%                    76.40%
  Overall                       76.94%                    74.57%                    79.31%

Multiple-Source Generic Drugs Without Federal Upper Limits
     Pharmacy Type           Estimated Mean           90% Confidence           90% Confidence
                                                  Interval—Lower Limit      Interval—Upper Limit
 Urban-independent               71.23%                    65.22%                   77.24%
 Urban-chain                     53.11%                    43.03%                   63.19%
 Rural-independent               67.10%                    63.00%                   71.20%
 Rural-chain                     61.87%                    53.09%                   70.65%
  Overall                        59.44%                    53.12%                   65.76%

Multiple-Source Drugs With Federal Upper Limits
     Pharmacy Type           Estimated Mean             90% Confidence         90% Confidence
                                                     Interval—Lower Limit   Interval—Upper Limit
 Urban-independent              51.87%                       48.74%                 55.00%
 Urban-chain                    34.12%                       30.18%                 38.06%
 Rural-independent              51.61%                       47.73%                 55.49%
 Rural-chain                    40.13%                       36.02%                 44.24%
  Overall                       40.42%                       37.87%                 42.97%
                                                                                      Page 6 of 6

Average Manufacturer Price

Single-Source Drugs
     Pharmacy Type           Estimated Mean             90% Confidence         90% Confidence
                                                     Interval—Lower Limit   Interval—Upper Limit
 Urban-independent              99.77%                       98.90%                100.64%
 Urban-chain                    102.01%                     100.96%                103.06%
 Rural-independent              99.76%                       98.98%                100.54%
 Rural-chain                    101.86%                     100.99%                102.73%
  Overall                       101.23%                     100.54%                101.92%

Multiple-Source Drugs Without Federal Upper Limits
     Pharmacy Type           Estimated Mean             90% Confidence         90% Confidence
                                                     Interval—Lower Limit   Interval—Upper Limit
 Urban-independent              177.95%                     165.75%                190.15%
 Urban-chain                    182.50%                     150.88%                214.12%
 Rural-independent              199.45%                     180.11%                218.79%
 Rural-chain                    189.92%                     168.29%                211.55%
  Overall                       182.20%                     162.79%                201.61%

Multiple-Source Brand-Name Drugs Without Federal Upper Limits
     Pharmacy Type          Estimated Mean           90% Confidence            90% Confidence
                                                  Interval—Lower Limit      Interval—Upper Limit
 Urban-independent              139.57%                  124.30%                   154.84%
 Urban-chain                    138.13%                  109.28%                   166.98%
 Rural-independent              155.06%                  136.36%                   173.76%
 Rural-chain                    135.71%                  123.90%                   147.52%
  Overall                       139.29%                  121.34%                   157.24%

Multiple-Source Generic Drugs Without Federal Upper Limits
     Pharmacy Type           Estimated Mean           90% Confidence           90% Confidence
                                                  Interval—Lower Limit      Interval—Upper Limit
 Urban-independent               203.08%                 189.90%                   216.26%
 Urban-chain                     203.63%                 149.72%                   257.54%
 Rural-independent               220.96%                 194.01%                   247.91%
 Rural-chain                     198.97%                 174.76%                   223.18%
  Overall                        204.14%                 171.39%                   236.89%

Multiple-Source Drugs With Federal Upper Limits
     Pharmacy Type           Estimated Mean             90% Confidence         90% Confidence
                                                     Interval—Lower Limit   Interval—Upper Limit
 Urban-independent              240.71%                     207.90%                273.52%
 Urban-chain                    170.68%                     149.56%                191.80%
 Rural-independent              249.03%                     225.03%                273.03%
 Rural-chain                    218.61%                     190.69%                246.53%
  Overall                       196.78%                     180.89%                212.67%
APPENDIX C: FREQUENCY DISTRIBUTION OF SINGLE-SOURCE DRUGS

   Greater   Less Than       Average           Wholesale            Average
    Than     or Equal to   Wholesale Price   Acquisition Cost   Manufacturer Price
     0%          70%               0                   0                   0
    70%          71%               0                   0                   0
    71%          72%               1                   0                   0
    72%          73%               1                   0                   0
    73%          74%               0                   0                   0
    74%          75%               3                   0                   0
    75%          76%               4                   0                   0
    76%          77%              15                   0                   0
    77%          78%              22                   0                   0
    78%          79%               6                   0                   0
    79%          80%              39                   0                   0
    80%          81%             622                   0                   1
    81%          82%             576                   0                   0
    82%          83%             174                   0                   0
    83%          84%           2,401                   0                   0
    84%          85%             191                   0                   2
    85%          86%             110                   0                   3
    86%          87%               1                   1                   0
    87%          88%               0                   0                   0
    88%          89%               0                   0                   5
    89%          90%               0                   1                   2
    90%          91%               0                   1                   3
    91%          92%               9                   8                   1
    92%          93%               0                  19                  20
    93%          94%               0                   0                  17
    94%          95%               0                   3                  27
    95%          96%               0                  36                  29
    96%          97%               0                 400                186
    97%          98%               0                 641                379
    98%          99%               0                 291                390
    99%         100%               0              1,871                 348
   100%         101%               0                 594              1,224
   101%         102%               0                 187                523
   102%         103%               0                  72                140
   103%         104%               0                  40                130
   104%         105%               0                   0                  65
   105%         106%               0                   0                  41
   106%         107%               0                   0                  43
   107%         108%               0                   0                  24
   108%         109%               0                   0                  17
   109%         110%               0                   0                   8
   110%                            0                   9                  69
  APPENDIX D: FREQUENCY DISTRIBUTION OF MULTIPLE-SOURCE DRUGS
                  WITHOUT FEDERAL UPPER LIMITS

Greater    Less    Brand-       Brand-      Brand-Name      Generic     Generic        Generic
 Than     Than     Name         Name          Average      Average     Wholesale      Average
            or    Average     Wholesale     Manufacturer   Wholesale   Acquisition   Manufacturer
          Equal   Wholesale   Acquisition      Price         Price       Cost           Price
             to     Price        Cost
  0%        5%         3           1              0           364           31             1
  5%       10%       49           12              3           320          163             3
 10%       15%       86           19              0           273          155             2
 15%       20%       36           69              0           238          169             2
 20%       25%       35           27              0           226          148            13
 25%       30%       37           39              1           209          153            15
 30%       35%       24           40              2           217          123            20
 35%       40%       55           13              0           157          155            25
 40%       45%       25           27              0           194          105            45
 45%       50%       32           42              1           114          146            57
 50%       55%       18           32              5            84           91            37
 55%       60%       33           19              4           134          114            58
 60%       65%       42           11             17           134           99            57
 65%       70%       33           17             24            98           81            85
 70%       75%       24           23              5            85          140            99
 75%       80%       54           33             17            68          104            70
 80%       85%      511           20             10            31          118            55
 85%       90%       33           16             11            20           86            93
 90%       95%         1          50             31             8           54            85
 95%      100%         0         449            145             0          104           127
100%      105%         0         126            227             0           28           140
105%      110%         0           3             60             2           29           107
110%      115%         0           0             59             0            8            76
115%      120%         0           3             37             0            4            99
120%      125%         0           0             44             0            1            51
125%      130%         0           0             33             0            0            74
130%      135%         0           0             33             0            5            95
135%      140%         0           0              8             0            3           103
140%      145%         0           0              8             0            0            71
145%      150%         0           0              8             0            0            49
150%      155%         0           0              9             0            0            47
155%      160%         0           0              4             0            0            68
160%      165%         0           0              8             0            1            56
165%      170%         0           0              5             0            0            48
170%      175%         0           0              8             0            0            43
175%      180%         0           0             12             0            2            69
180%      185%         0           0              6             0            2            31
185%      190%         0           0              6             0            0            28
190%      195%         0           0             10             0            0            20
195%                   0           0            111             0           26           665
APPENDIX E: FREQUENCY DISTRIBUTION OF MULTIPLE-SOURCE DRUGS
                 WITH FEDERAL UPPER LIMITS

    Greater   Less Than       Average           Wholesale            Average
     Than     or Equal to   Wholesale Price   Acquisition Cost   Manufacturer Price
      0%           5%           3,102                120                  0
      5%          10%           1,493                477                  0
     10%          15%             829                729                  4
     15%          20%             478                542                  9
     20%          25%             315                499                 15
     25%          30%             220                542                 16
     30%          35%             147                455                 24
     35%          40%             113                398                 20
     40%          45%              74                295                 36
     45%          50%              62                245                 81
     50%          55%              59                285                 89
     55%          60%              25                236                 91
     60%          65%              27                201                125
     65%          70%              19                136                135
     70%          75%              20                115                168
     75%          80%              11                 98                206
     80%          85%             143                 91                244
     85%          90%               2                 64                226
     90%          95%               8                 52                296
     95%         100%               4                173                307
    100%         105%               0                 73                326
    105%         110%               0                 25                236
    110%         115%               0                   6               239
    115%         120%               0                 11                265
    120%         125%               0                   3               193
    125%         130%               0                   0               174
    130%         135%               1                   0               178
    135%         140%               0                   0               143
    140%         145%               0                   0               119
    145%         150%               0                   0               101
    150%         155%               0                   5               125
    155%         160%               0                   1               128
    160%         165%               0                   3               109
    165%         170%               0                   1               112
    170%         175%               0                   0               101
    175%         180%               0                   6                84
    180%         185%               0                   0               112
    185%         190%               0                   0                85
    190%         195%               0                   0                81
    195%                            0                   5             1,838
